No.

IN THE SUPREME COURT OF THE UNITED STATES

FELIPE AMBRIZ-VALDOVINOS,
Petitioner,
-y-
UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE

MICHAEL MARKS, being first duly sworn, deposes and says: That
pursuant to Rule 29.4(a) of this Court she served the within PETITIONER’S
PETITION FOR WRIT OF CERTIORARI TO THE COURT OF APPEALS FOR
THE NINTH CIRCUIT on the counsel for Respondent by enclosing a copy thereof in
an envelope, First Class Postage Prepaid, addressed to Elizabeth Prelogar, Acting
Solicitor General of the United States, Department of Justice, 950 Pennsylvania
Avenue, N.W., Washington, D.C. 20530-0001; and included an original and ten (10)
copies to Hon. Scott S. Harris, Clerk United States Supreme Court, One First
Street, N.E., Washington, D.C. 20543-0001 and depositing same in the United
States mails at San Diego, California on June 17, 2021.

eS MARKS Qua ai

Counsel for Petitioner

 
